<html>
<title> - VOTING IN AMERICA: ENSURING FREE AND FAIR ACCESS TO THE BALLOT</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




                                                               
    VOTING IN AMERICA: ENSURING FREE AND FAIR ACCESS TO THE BALLOT

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             APRIL 1, 2021

                               ----------                              


      Printed for the use of the Committee on House Administration
      
      
      

                              BOOK 1 OF 2
                              
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               





                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
         
         
     VOTING IN AMERICA: ENSURING FREE AND FAIR ACCESS TO THE BALLOT
     
                              BOOK 1 OF 2
                              
                              



     VOTING IN AMERICA: ENSURING FREE AND FAIR ACCESS TO THE BALLOT

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 1, 2021

                               __________

      Printed for the use of the Committee on House Administration

                              BOOK 1 OF 2
                              
                              
                              
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                              


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
         
                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
45-155                WASHINGTON : 2021
                   
                   
                   
                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois,
G. K. BUTTERFIELD, North Carolina      Ranking Member
PETE AGUILAR, California             BARRY LOUDERMILK, Georgia
MARY GAY SCANLON, Pennsylvania       BRYAN STEIL, Wisconsin
TERESA LEGER FERNANDEZ, New Mexico



                            C O N T E N T S

                              ----------                              

                             APRIL 1, 2021

                                 BOOK 1

                                                                   Page
Voting in America: Ensuring Free and Fair Access to the Ballot...     1

                           OPENING STATEMENTS

Chairman G. K. Butterfield.......................................     1
    Prepared statement of Chairman Butterfield...................     4
Chairperson Zoe Lofgren..........................................     6
    Prepared statement of Chairperson Lofgren....................     7
Hon. Bryan Steil, Ranking Member.................................     8
    Prepared statement of Ranking Member Steil...................    10

                               WITNESSES

Allison Riggs, Interim Executive Director/Chief Counsel, Voting 
  Rights, Southern Coalition for Social Justice..................    14
    Prepared statement of Ms. Riggs..............................    17
Sonja Diaz, Founding Director, Latino Policy & Politics 
  Initiative, UCLA Luskin School of Public Affairs...............    29
    Prepared statement of Ms. Diaz...............................    31
Marcia Johnson-Blanco, Co-Director, Voting Rights Project, 
  Lawyers' Committee for Civil Rights Under Law..................   114
    Prepared statement of Ms. Johnson-Blanco.....................   116
Debo Adegbile, Partner, Wilmer Cutler Pickering Hale and Dorr, 
  LLP............................................................   151
    Prepared statement of Mr. Adegbile...........................   153
Hon. Kim Wyman, Secretary of State, State of Washington..........   179
    Prepared statement of Hon. Wyman.............................   181

                        QUESTIONS FOR THE RECORD

Allison Riggs, Interim Executive Director/Chief Counsel, Voting 
  Rights, Southern Coalition for Social Justice, answers to 
  submitted questions............................................   196
Sonja Diaz, Founding Director, Latino Policy & Politics 
  Initiative, UCLA Luskin School of Public Affairs, answers to 
  submitted questions............................................   209
Marcia Johnson-Blanco, Co-Director, Voting Rights Project, 
  Lawyers' Committee for Civil Rights Under Law, answers to 
  submitted questions............................................   229
Debo Adegbile, Partner, Wilmer Cutler Pickering Hale and Dorr, 
  LLP, answers to submitted questions............................   238
Hon. Kim Wyman, Secretary of State, State of Washington, answers 
  to submitted questions.........................................   256

                       SUBMISSIONS FOR THE RECORD

Use of Same-Day Registration in North Carolina, General Election 
  2016, Southern Coalition for Social Justice....................   260
2021 Voting by Mail and Absentee Voting Report, MIT Election Data 
  and Science Lab................................................   268
An Assessment of Minority Voting Rights Access in the United 
  States, 2018 Statutory Report, U.S. Commission on Civil Rights.   279
Kansas Secure and Fair Elections Act, A Briefing Report of the 
  Kansas Advisory Committee to the U.S. Commission on Civil 
  Rights, March 2017.............................................   683
Alaska Native Voting Rights, Advisory Memorandum of Alaska 
  Advisory Committee to the U.S. Commission on Civil Rights, 
  March 2018.....................................................   758
Access to Voting in Alabama, A Summary of Testimony received by 
  Alabama Advisory Committee to the U.S. Commission on Civil 
  Rights, June 2018..............................................   775
Voting Rights in Arizona, An Advisory Memorandum of the Arizona 
  Advisory Committee to the U.S. Commission on Civil Rights, July 
  2018...........................................................   803
Civil Rights and Voting in Illinois, A Briefing Report of the 
  Illinois Advisory Committee to the U.S. Commission on Civil 
  Rights, February 2018..........................................   821
Voting Rights in Indiana, Advisory Memorandum of the Indiana 
  Advisory Committee to the U.S. Commission on Civil Rights, May 
  2018...........................................................  1031

                                 BOOK 2

Barriers to Voting in Louisiana, Briefing Paper by the Louisiana 
  Advisory Committee for the United States Commission on Civil 
  Rights, June 2018..............................................  1653
Voting Rights in Maine, Report of the Maine Advisory Committee to 
  the U.S. Commission on Civil Rights, April 2018................  1692
Voting Rights in New Hampshire, A Report of the New Hampshire 
  Advisory Committee to the U.S. Commission on Civil Rights, 
  March 2018.....................................................  1725
Voting Rights in Ohio, Advisory Memorandum of the Ohio Advisory 
  Committee to the U.S. Commission on Civil Rights, May 2018.....  1783
Advisory Memorandum on Voting Rights Briefing, Rhode Island 
  Advisory Committee to the U.S. Commission on Civil Rights, 
  October 2018...................................................  2228
Voting Rights in Texas, An Advisory Memorandum of the Texas 
  Advisory Committee to the U.S. Commission on Civil Rights, July 
  2018...........................................................  2234
Alaska Native Voting Rights, A Report of the Alaska Advisory 
  Committee to the U.S. Commission on Civil Rights, June 2019....  2257
Voting Rights and Access in Michigan, A Report of the Michigan 
  Advisory Committee to the U.S. Commission on Civil Rights, 
  April 202327...................................................
Alaska Advisory Committee to the U.S. Commission on Civil Rights 
  Urges Safe and Secure Election Administration During the COVID-
  19 Pandemic, September 2020....................................  2376
Barriers to Voting in Alabama, A Report by the Alabama Advisory 
  Committee to the U.S. Commission on Civil Rights, February 2020  2379
Voting Rights and Voter Disenfranchisement in Florida, An 
  Advisory Memorandum of the Florida Advisory Committee to the 
  U.S. Commission on Civil Rights, October 2020..................  2797
Indiana Advisory Committee to the U.S. Commission on Civil Rights 
  Urges Adoption of No-Excuse Absentee Voting in Upcoming 
  Election, 2020.................................................  2825
Voting Rights in Missouri, The Impact of COVID-19, A Modified 
  Summary of Testimony from Missouri Advisory Committee to the 
  U.S. Commission on Civil Rights, October 2020..................  2827
Nevada Advisory Committee to the U.S. Commission on Civil Rights, 
  Statement on Voting Access During the COVID-19 Pandemic, 
  September 2020.................................................  2858
Voting Rights and Felony Convictions, Advisory Memorandum of the 
  Washington Advisory Committee to the U.S. Commission on Civil 
  Rights, June 2020..............................................  2860
Carter Center Statement on Voting by Mail for 2020 U.S. Elections  2873

 
     VOTING IN AMERICA: ENSURING FREE AND FAIR ACCESS TO THE BALLOT

                              ----------                              


                        THURSDAY, APRIL 1, 2021

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 12:02 p.m., via 
Webex, Hon. G. K. Butterfield [Chair of the Subcommittee] 
presiding.
    Present: Representatives Butterfield, Aguilar, Leger 
Fernandez, and Steil.
    Also Present: Representatives Lofgren, Scanlon, Sewell, and 
Rodney Davis of Illinois.
    Staff Present: Jamie Fleet, Majority Staff Director; David 
Tucker, Parliamentarian; Brandon Jacobs, Legislative Clerk; 
Sean Wright, Senior Elections Counsel; Sarah Nasta, Elections 
Counsel; Peter Whippy, Communications Director; Natalie Young, 
Press Secretary; Tim Monahan, Minority Deputy Staff Director; 
Caleb Hays, Minority General Counsel; Gineen Bresso, Minority 
Special Counsel; Nick Crocker, Minority Member Services 
Director; and Will Neitzel, Committee Liaison for Subcommittee 
Ranking Member Bryan Steil.
    Chairman Butterfield. The Subcommittee on Elections of the 
Committee on House Administration will now come to order.
    Now, before getting started this morning, I need to 
acknowledge each one of the Subcommittee members who are 
present today to ensure that we have a quorum and that the 
quorum is recorded.
    I am informed that we have with us Mr. Aguilar from 
California; Mr. Steil from Wisconsin; Ms. Leger Fernandez from 
New Mexico; the Ranking Member of the full Committee, Mr. 
Rodney Davis from Illinois; and Ms. Scanlon from Pennsylvania, 
a Member of the full Committee.
    Joining us will be a visiting Member who is no stranger to 
this Committee, from the State of Alabama, Congresswoman 
Sewell. And in just a moment, I am going to ask unanimous 
consent that she be allowed to participate in today's hearing. 
And, of course, I should be recorded, likewise, for the quorum.
    Good afternoon, everyone. Good morning if you are on the 
West Coast. As we begin today, I want to note that we are 
holding this hearing in compliance with the regulations for 
remote committee proceedings pursuant to House Resolution 8.
    Generally, we ask Members and witnesses to keep their 
microphones muted when not speaking to limit background noise. 
Members will need to unmute themselves when seeking recognition 
or when recognized for their five-minute presentations. 
Witnesses will also need to unmute themselves when recognized 
for their five minutes or when answering a question.
    Members and witnesses, please keep your cameras on at all 
times. Even if you need to step away from the computer for just 
a moment, please keep your cameras on at all times. Please do 
not leave the meeting or turn your camera off.
    I would also like to remind members that the regulations 
governing remote proceedings require us to not participate in 
more than one committee proceeding at the same time.
    And so, at this time, I ask unanimous consent that all 
members have five legislative days in which to revise and 
extend their remarks and have any written statements be made 
part of the record.
    Hearing no objection, it is so ordered.
    At this time I will ask unanimous consent that 
Representative Terri Sewell of the Seventh District of Alabama 
be invited to join us today for this Subcommittee hearing. 
Congresswoman Sewell is no stranger to our Committee. She works 
very hard in this space, and we are delighted to have her with 
us today.
    Hearing no objection, it is so ordered.
    My friends, today we are examining voting in America, the 
barriers voters have historically faced and continue to face, 
as well as ways in which we can ensure every American enjoys 
free and fair access to the ballot box.
    One of our most sacred rights in this country is the right 
to vote. Indeed, as the U.S. Supreme Court observed in Wesberry 
v. Sanders, ``other rights, even the most basic, are illusory 
if the right to vote is undermined.''
    As a Congress, as a Nation, we cannot tolerate any voter 
suppression or any voter discrimination whatsoever. However, 
all too often, access to the ballot in this country has been 
neither free nor fair. Time and time again, in courtrooms all 
across the country, it has been proven that racially polarized 
voting has existed at the ballot box since 1870, since the 15th 
Amendment was ratified, and, sadly, it persists today.
    During the last Congress, this Subcommittee traveled all 
across the country--yes, we did. I remember it so well. I 
remember going to North Dakota when it was zero degrees, and I 
remember going to the southern border. We traveled this 
country. We collected evidence that ultimately proved the 
persistence of voter suppression and discrimination.
    Nearly eight years after the Supreme Court decided the 
Shelby case, our work continues. It continues because voter 
suppression and discrimination still exist. At the time Shelby 
was decided, Chief Justice Roberts himself said voting 
discrimination still exists. That was the Chief Justice of the 
United States Supreme Court. He acknowledged that voting 
discrimination still exists, and so no one should deny that.
    It is our duty as elected Members of Congress to uphold and 
defend the Constitution and to protect the rights of every 
single voter in this country. In a country that holds itself 
out as the greatest democracy in the world, every citizen 
deserves equal and unfettered access to the ballot box.
    The elections of last year showed us--showed us that, when 
barriers are removed and voters are given options for when and 
how to cast their ballot, participation in our democratic 
process increases. And that increased participation does not 
compromise the integrity of our elections; in fact, it actually 
bolsters integrity.
    However, even in an election with such high participation 
such as last year, access to the franchise is still not equal 
for all Americans. We can and we must do better. Congress 
cannot allow the access voters have to be rolled back yet 
again.
    In the years since the Shelby was decided, States all 
across the country have passed numerous voter-suppression laws, 
requiring long and costly battles to be waged in courtrooms to 
protect and defend the right to vote.
    This year, despite no credible evidence of any 
irregularities in the 2020 election, States are responding to 
Americans' participation in democracy by moving to curtail 
access, introducing suppressive voting legislation at an 
alarming rate, bills that, if they were to become law, would 
almost certainly disenfranchise our voters.
    According to an updated report published just today, this 
morning, by the Brennan Center for Justice, State legislators 
have introduced 361 bills with restrictive voting provisions in 
47 States--47 States--since the beginning of this year. This is 
a more-than-40-percent increase in little more than a month 
since their February tally. Across the country, from Iowa to 
Georgia, bills are being advanced and signed into law that 
restrict voters' access to the ballot.
    The Voting Rights Act--the Voting Rights Act of 1965 wasn't 
written here in Congress. It was written between Shelby and 
Montgomery. I say that all the time. The Voting Rights Act 
wasn't written here in Washington. It was written between 
Shelby and Montgomery. It was by our fellow Americans who 
fought for equal access to what was supposed to be a democracy.
    And so, today, we continue the work of ensuring each and 
every American has an equal voice and an equal vote. This will 
be the first of several hearings on this very important topic. 
The testimony provided today will help guide us as this 
Subcommittee seeks to understand what needs to be done to 
safeguard our elections and guarantee access to the ballot box.
    It is time, colleagues. It is time we encourage people to 
vote, rather than continuing to erect barriers that seek to 
suppress the votes and voices of communities.
    I look forward to hearing from today's witnesses. I thank 
them for their participation. I look forward to working with my 
colleagues on this important issue.
    Now, before I recognize my friend, the Ranking Member, let 
me just take a moment to recognize the chair of our full 
Committee, who has graciously joined us today from northern 
California. I will now yield to the gentlelady from California, 
Chairperson Zoe Lofgren.
    [The statement of Chairman Butterfield follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Thank you, Mr. Chairman. I will be brief. 
I wanted to congratulate the Subcommittee for this, its first 
hearing in this Congress.
    You know, I remember, I was just a schoolgirl when the 
Voting Rights Act was signed into law in 1965, and the change 
that that made in our country, where all Americans had a better 
chance to exercise their franchise.
    The law was renewed periodically on a bipartisan basis, the 
last time led by then-Chairman Jim Sensenbrenner on the 
Judiciary Committee, who had a substantial record that 
unfortunately the court discarded in the Shelby decision.
    So now it is our task to compile the record to make sure 
that this essential law continues to protect the rights of 
Americans to vote.
    I could not be more thrilled than having the opportunity to 
appoint this Chairman of this Subcommittee. As we know, the 
Chairman spent many, many years as a distinguished jurist in 
North Carolina before running for Congress. He has a keen 
intellect, a great depth of knowledge in the law, a wonderful 
temperament, and he is tenacious.
    So I know this is the beginning of a very large number of 
hearings, and the work will be intensive, but I want to thank 
the Subcommittee and especially the Chairman for taking this 
on, because it will make a tremendous difference for our 
country.
    And, with that, Mr. Chairman, I appreciate the courtesy of 
allowing me to say these few words, and I happily yield back.
    [The statement of the Chairperson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Butterfield. We thank you, Chairperson Lofgren, 
and best wishes to you.
    I will now recognize the Ranking Member, Mr. Steil of the 
great State of Wisconsin, for his opening statement.
    Mr. Steil, you are recognized.
    Mr. Steil. Thank you very much, Chairman. I appreciate you 
having today's hearing.
    It is focused on, today, about ensuring free and fair 
access to the ballot. And I am glad we are talking about this, 
because Republicans want to ensure that every eligible person 
who wants to vote is able to cast a vote and that we make sure 
that every lawful ballot is counted according to State law.
    I would be remiss not to point out a bit of irony, as we 
are sitting here today holding an important investigative 
hearing after the House passed H.R. 1, a partisan vote in favor 
of bipartisan votes--in opposition to H.R. 1. And as many on 
this Subcommittee will recall, no opportunity to mark up or 
make amendments, to learn from hearings like we could have had 
today, prior to that bill being passed. But, alas, here we are 
during Holy Week on a district work period, joining together to 
review the importance of making sure that we have it easy to 
vote and hard to cheat.
    And, as we look back, more Americans are voting than ever 
before. And I think you noted that in your opening comments. 
That is great for our Republic. In 2020, 158.4 million 
Americans voted in the Presidential election, the highest ever. 
Wisconsin had record voter turnout in the 2020 election, like 
many States did. Wisconsin was in the top five for voter 
turnout.
    And I think it is remiss to not ask the question of 
ourselves: Was this because of a Federal mandate, or was it 
because States were deciding what works best for them as it 
relates to voting?
    Those numbers, I think, will shock some people listening to 
this, because the narrative being pushed, I think, is counter 
to the idea that we had 158 million Americans vote in the last 
election. And I think some of the narrative that we are hearing 
is, because we are seeing fewer people voting, while we are 
seeing a higher number of people voting, we have no choice but 
to federalize our election.
    The crisis, you will hear, is so dire that H.R. 1 needed to 
be rushed through the House, again, with only one hearing in 
this Committee, no hearings in others; no amendments allowed to 
be offered--in particular, no amendments following a major 
global pandemic that we are more or less still in; no ability 
to learn our lessons of what happened in the 2020 election to 
be implemented into this major piece of legislation. So now we 
are stuck with more of a messaging bill than a real viable 
piece of legislation that had true bipartisan input.
    What are some of the problems with H.R. 1? It guts voter ID 
protections. For example, in Wisconsin, a State with a strong 
voter ID law, this bill would allow an individual to vote 
simply by signing a sworn statement. That is it. It legalizes 
ballot harvesting at the national level. It will allow Federal 
funding of congressional campaigns, give government money to 
fund politicians' reelection efforts, fund negative TV ads.
    And, as we recall, the 800-page bill was rushed through 
Congress with no consideration of how it would be implemented 
at the State and local level. As we know here, each State has 
different election laws because each State is different.
    Wisconsin has a unique election system. In my home State 
here in Wisconsin, while voter rolls are centralized, elections 
are managed by clerks. We have 1,852 local governments 
overseeing 2,800 polling places and 30,000 poll workers--very 
different than some of our other States around the country.
    And so laws that govern your right to vote should be made 
at the level of government closest to the people, not by 
politicians in Washington, D.C., more focused on appeasing 
special interest groups, trying to get government money into 
their reelection efforts. We should be focused on what works 
for voters.
    So, if there are issues with State laws, we need to work 
with State legislatures, local officials, as to how to change 
them. That is what I am doing here in the State of Wisconsin.
    I am concerned that the Democrat proposal that was put 
forward in H.R. 1 is going to create more distrust in our 
election process at a time when we need to secure our elections 
and restore trust in our election system. In a time of real 
record voting turnout, I don't think it is the time to be 
mandating a one-size-fits-all to our voting system.
    I look forward to today's discussion and conversation. I do 
think it is a little bit disappointing we are doing this after 
we rushed through H.R. 1, but, alas, here we are. And I do look 
forward to today's discussion.
    And, with that, I yield back.
    [The statement of Mr. Steil follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Butterfield. The gentleman yields back.
    Let me thank you, Mr. Ranking Member, for your comments. 
And I look forward to working with you, Mr. Steil. We have not 
had an opportunity to really bond since you have been appointed 
to the Committee, but--because of COVID, we have had to keep 
our distances. But I promise you that we will develop a 
relationship and try as best we can to work together on this 
Subcommittee.
    We have a longstanding history on this Subcommittee and 
this Committee of good bipartisanship, and I look forward to 
having that relationship with you. Your predecessor in office, 
Mr. Ryan, the former Speaker of the House, was a dear friend, 
and we had a very strong relationship. And I look forward to 
that with you as well.
    Mr. Steil. I look forward to that as well.
    Chairman Butterfield. Thank you, sir. Thank you.
    Before proceeding to our witnesses, I would like to extend 
to the Ranking Member of the full Committee, my friend, Mr. 
Rodney Davis of Illinois, Congressman Davis, an opportunity to 
make an opening statement as well.
    Mr. Davis.
    Mr. Davis. Well, thank you, Mr. Chair. And you have some 
big shoes to fill. I guess I have one question for you, sir. 
What Cabinet position do you want after your time as the Chair 
of this Subcommittee?
    Chairman Butterfield. Well, Rodney, I am so happy to be in 
the seat that I am in, representing the 750,000 people of North 
Carolina's First District, I think I will just stay right here 
for another decade.
    Mr. Davis. Well, I don't want that office next to me 
vacant, buddy. I want you there. It is great to----
    Chairman Butterfield. Thank you.
    Mr. Davis [continuing]. Be next to you there. Great to have 
you here.
    And I do miss our former Chair, Marcia Fudge, who has gone 
on to brighter pastures as our new Secretary of Housing and 
Urban Development. I couldn't think of a better person to take 
over for her on this Subcommittee.
    You know, one thing that you will find and the witnesses 
will find is, this Subcommittee is going to be made up of 
people who genuinely like each other, Republicans and Democrats 
that actually genuinely get along. Unfortunately, the media 
doesn't talk about those issues.
    We will have our policy disagreements, and you will see 
that here today. But, in the end, hopefully we can come 
together to make sure we do what we all want, which is for 
every person who is legally able to cast a vote to be able to 
do so.
    And, G.K., I look forward to working with you, Mr. Chair.
    I am very proud of our new Ranking Member of this 
Subcommittee, Mr. Steil. He is a very good member of our 
conference and one who is very interested in making not just 
the House work better but our elections work better nationwide.
    So welcome aboard, Bryan.
    Thank you, Mr. Chair. I appreciate the opportunity. And I 
will yield back without even making fun of Mr. Aguilar.
    Chairman Butterfield. Thank you very much, Mr. Davis. Thank 
you for your very kind words.
    In just a moment, I will introduce today's panel, but 
before I do that, as a reminder to our witnesses, each of you 
will be recognized for five minutes. I think most of you have 
testified previously, and so you know kind of how this thing 
works. But you will be recognized for five minutes, and there 
is a timer on your screen, so please be sure you can see the 
timer and are mindful of the five-minute time limit.
    Your entire written statements will be made a part of the 
record. And the record will remain open for at least five days 
for additional materials that may be submitted.
    And so welcome to each of our witnesses.
    Joining us today are Allison Riggs, who is with the 
Southern Coalition for Social Justice.
    We have Sonja Diaz, UCLA--the University of California, Los 
Angeles--UCLA Latino Policy and Politics Initiative.
    We have Marcia Johnson-Blanco from the Lawyers' Committee 
for Civil Rights Under Law.
    And Debo Adegbile--I have always had problems pronouncing 
your name, sir, but welcome. Welcome to our committee. And I 
know of your great work, and I am glad to have you back before 
the Committee.
    Debo Adegbile is with the firm of WilmerHale.
    Also, Secretary of State Kim Wyman is with us from the 
State of Washington.
    Allison Riggs is the interim Executive Director and Chief 
Counsel for voting rights at the Southern Coalition for Social 
Justice, based in North Carolina, which is where I am at this 
moment.
    Ms. Riggs's voting rights work over the last 10 or more 
years at SCSJ has been focused on fighting for fair 
redistricting plans, fighting against voter suppression, and 
advocating for electoral reforms that would expand access to 
voting.
    She has litigated redistricting cases on behalf of the 
State NAACP Conference in Texas and Florida and Virginia and 
right here in North Carolina. In 2018, she argued the Texas 
redistricting case in the U.S. Supreme Court, and, in 2019, she 
argued the North Carolina partisan gerrymandering case in the 
Supreme Court.
    Sonja Diaz is a practicing civil rights attorney and policy 
advisor. As founding director of UCLA Latino Policy and 
Politics Initiative, Ms. Diaz co-founded the first multi-issue 
policy think tank focused on Latinos in the University of 
California. She is responsible for overseeing all aspects of 
LPPI, including strategy, research, mobilization, and 
leadership. With a deep background in policy and advocacy, she 
is a regular contributor to the organization's research 
portfolio.
    Prior to this assignment, Ms. Diaz served as policy counsel 
to Vice President Kamala Harris during her first and second 
terms as California's Attorney General.
    Next is Marcia Johnson-Blanco. Marcia is the Co-Director of 
the Lawyers' Committee's Voting Rights Project. She manages the 
project's programmatic and advocacy portfolios, which includes 
leading Election Protection, the Nation's largest nonpartisan 
voter protection program; overseeing the work of the National 
Commission on Voting Rights; promoting election reform; 
ensuring minority participation in redistricting; and ensuring 
that those with felony convictions regain their right to vote.
    Ms. Johnson-Blanco started at the Lawyers' Committee as a 
staff attorney back in 2004, working on the first Election 
Protection program during a Presidential election. The 
following year, in 2005, she served as the deputy director of 
the National Commission on the Voting Rights Act, which was 
organized to review the record of discrimination in voting from 
1982 to 2005.
    Debo Adegbile is a partner at the WilmerHale firm, where he 
is a member of the Government and Regulatory Litigation Group 
as well as the co-chair of the firm's antidiscrimination 
practice.
    Among his prior experience, he spent more than a decade 
working for the NAACP Legal Defense and Education Fund. In 
2013, he argued his second Supreme Court case, Shelby County v. 
Holder. Previously, he argued the Northwest Austin v. Holder 
case in the Supreme Court.
    In addition to his practice at the firm, our witness 
currently serves as a Commissioner on the U.S. Commission on 
Civil Rights, appointed by President Barack Obama in 2016.
    Our witness is here testifying today in his personal 
capacity. We need to make sure that is in the record.
    Finally, Secretary of State Kim Wyman of the great State of 
Washington is that State's 15th Secretary of State. First 
elected in 2012, she is only the second female Secretary of 
State in Washington's history.
    Prior to being elected, Secretary Wyman served as Thurston 
County elections director for nearly a decade, served three 
terms as elected Thurston County auditor. Secretary Wyman is 
responsible for overseeing State and local elections, 
corporation and charity filings, the Washington State Library, 
the Washington Talking Book and Braille Library, and the 
Washington State Archives.
    That completes the introductions. We are now going to 
recognize each witness for five minutes.
    Ms. Riggs, you should go first. You are now recognized for 
five minutes.

 STATEMENTS OF ALLISON RIGGS, INTERIM EXECUTIVE DIRECTOR/CHIEF 
COUNSEL, VOTING RIGHTS, SOUTHERN COALITION FOR SOCIAL JUSTICE; 
   SONJA DIAZ, FOUNDING DIRECTOR, LATINO POLICY AND POLITICS 
   INITIATIVE, UCLA LUSKIN SCHOOL OF PUBLIC AFFAIRS; MARCIA 
 JOHNSON-BLANCO, CO-DIRECTOR, VOTING RIGHTS PROJECT, LAWYERS' 
 COMMITTEE FOR CIVIL RIGHTS UNDER LAW; DEBO ADEGBILE, PARTNER, 
 WILMER CUTLER PICKERING HALE AND DORR, LLP; THE HONORABLE KIM 
         WYMAN, SECRETARY OF STATE, STATE OF WASHINGTON

                   STATEMENT OF ALLISON RIGGS

    Ms. Riggs. Good afternoon, Chairman Butterfield, Ranking 
Member Steil, Members of the Subcommittee, and Representative 
Sewell. My name is Allison Riggs, and I am the co-executive 
director of the Southern Coalition for Social Justice. I also 
serve as chief counsel for voting rights. Thank you for the 
opportunity to testify today.
    My colleagues will, I am sure, speak to you about what is 
happening in Georgia and Texas right now, but I want to tell 
you about the unjustified efforts here in North Carolina 
underway to make it harder to vote.
    North Carolina remains the most active battlefield in this 
unending war for access to the ballot box, where the ``Southern 
strategy'' remains ever visible and effective, where politics 
are used as a proxy for race and embolden acts taken to 
restrict access to voting, and where electoral success by 
voters of color is met with voter suppression.
    For our most vulnerable voters, who lack access to 
transportation, who work multiple jobs just to make ends meet, 
who suffer health conditions that restrict their mobility, 
practices that make it harder to vote absolutely make the 
difference between voting or not. And because of the ugly 
history of official racial discrimination in our country, those 
voters, vulnerable voters, are disproportionately voters of 
color.
    We have rightfully celebrated the numerous successes in 
administering the 2020 election--record turnout in many States, 
voters largely voting safely in a pandemic--but we can't stop 
the story there.
    In predominantly Black and Latinx communities across the 
area in which SCSJ works, voters waited for hours to vote. The 
five States that did not allow unfettered access to vote-by-
mail in 2020--Tennessee, Texas, Mississippi, Indiana, and 
Louisiana--were in the bottom 10 in turnout countrywide. Voters 
of color had their absentee ballots rejected at 
disproportionately high rates.
    There are laws and policies that contribute to this 
problem, and State legislatures are not acting to fix them; in 
fact, the opposite.
    In North Carolina, legislative efforts are now underway to 
restrict absentee voting. A proposed law would require absentee 
ballots to be received by 5:00 p.m. on election day to be 
counted.
    Not only would this make North Carolina an extreme outlier 
nationally, but, in the data we provided to you, on some of the 
days right after the election, when a timely postmarked ballot 
was received by election officials, Black voters would 
disproportionately have their ballots thrown out.
    That same bill would move the deadline for requesting 
absentee ballots an entire week earlier than in 2020.
    By the analysis performed by our partners at Democracy 
North Carolina, nearly 50 percent of the thousands of ballots 
that would have been discounted had these proposed rules been 
in effect in 2020 would have been from voters of color.
    And even when, in 2016, the Fourth Circuit found the North 
Carolina legislature guilty of intentional racial 
discrimination when it, among other things, cut early voting--a 
mechanism of access on which Black voters disproportionately 
rely--the legislature responded in 2018 by passing a law that 
reduced the number of early-voting sites offered in 2018 
compared to 2014. And now, in 2021, they are trying to restrict 
executive officials' ability to act in emergency situations to 
protect access to early voting.
    Lastly, I would be remiss if I didn't address the important 
redistricting processes that will be happening across the 
country later this year.
    For as long as we have been redrawing electoral district 
lines after decennial censuses, redistricting has been a tool 
used to dilute and silence the voices of voters of color. And 
this is the first redistricting cycle in decades where those 
voters won't have the protections of section 5 of the Voting 
Rights Act.
    As I detailed in my written comments, last redistricting 
cycle, the North Carolina General Assembly passed numerous 
State and local redistricting plans that violated the 
Constitution or were inconsistent with section 2 remedies 
already in place.
    In North Carolina and other States, particularly where 
there are significant populations of voters of color, 
redistricting is one of the several known practices that should 
invoke heightened review by Congress and Federal agencies. 
Congress needs to intervene to protect Black, Latinx, AAPI, and 
indigenous voters.
    Thank you.
    [The statement of Ms. Riggs follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Butterfield. Thank you. You hit it right on the 
mark, Ms. Riggs.
    At this time, we will recognize the next witness. Ms. Diaz 
is next to speak.
    Ms. Diaz, you are recognized for five minutes.

                    STATEMENT OF SONJA DIAZ

    Ms. Diaz. Chairperson Butterfield, Ranking Member Steil, 
and members of the Subcommittee on Elections of the Committee 
on House Administration, my name is Sonja Diaz. I am a licensed 
attorney and the founding director of the UCLA Latino Policy 
and Politics Initiative.
    Much of my research is on the intersections of law and 
policy as it relates to the Nation's diverse Latino 
communities. Thank you for affording me the privilege of 
testifying on how we can strengthen American democracy.
    I think it is important to start with my story. I grew up 
in northeast Los Angeles. My father, born and raised in east 
Los Angeles, and my mother, a farmworker from the Central 
Valley, gave me a community education grounded in civil rights.
    My siblings and I marched through the streets of Los 
Angeles, bellowing our support for workers and immigrants, 
holding up signs at protests to advocate against discriminatory 
ballot initiatives. Our tiny feet walked precincts to advocate 
for candidates that spoke to the issues that mattered most. It 
was from this perspective that my understanding of our 
democracy and our individual power to strengthen it was formed.
    Oftentimes, when we talk about voter suppression, we focus 
on a set of jurisdictions that have long been held as bad 
actors in our law textbooks, places like Texas, Georgia, North 
Carolina, and Florida. But this frame too often leaves out an 
important fact: The attack on Americans' fundamental right to 
free and fair access to the ballot happens everywhere, for all 
Americans.
    This is true of my story. As a young girl, I was able to 
see myself represented in government in ways that neither of my 
parents could fathom. Because of a Federal court's decision in 
Gardner v. Los Angeles County Board of Supervisors in 1990, the 
county was forced to create the first Latino-majority seat. As 
a result, Gloria Molina was the first Latino ever elected to 
that body. She was not the last. Ms. Molina's First 
Supervisorial District seat is currently occupied by Hilda 
Solis, who was the first Latina to be appointed to a 
Presidential Cabinet.
    Thirty years later, the L.A. County Board of Supervisors 
still has only one Latino-majority district. Yet, in the last 
20 years, the Latino citizen voting-age population increased by 
77 percent. Unless Congress acts to remedy this pernicious vote 
dilution in L.A., redistricting cycles will continue to fail 
the Nation's largest Latino community.
    Another example is the State of Washington, which, like 
California, has championed innovation to expand access to the 
ballot box and improve election administration. Both States 
have their own voting rights acts. Yet Latinos remain targets 
of efforts to deny them meaningful participation in elections. 
Over the years, the UCLA Voting Rights Project has been 
involved in legal advocacy in Washington.
    The example of Yakima City is another compelling modern-day 
challenge to voters that threatens American democracy. In 2014, 
a Federal court ordered Yakima to create new single-member city 
council districts to remedy an at-large districting scheme that 
routinely suffocated the voting preferences of Latinos.
    Yakima functions as a tale of two worlds, White and Brown, 
and it is split by a single street, 16th Avenue. Throughout 
history, there was a gross lack of Latino representation across 
all facets of civic life and routine underinvestment in the 
Brown side of town.
    In the first election with the new districts, there was a 
moment of hope and opportunity, where doors opened in a way 
Latinos had never seen before. That 2015 election resulted in 
political history. Three Latinas were elected to the city 
council.
    In response, the city clerk, along with some ousted White 
city council members, resigned an entire month early--to leave 
before the Mexicans arrived.
    The retaliation didn't stop. White council members sought 
to leverage an at-large ballot referendum to reduce the 
electoral voice of Latinos by creating a strong mayor system. 
UCLA immediately intervened to combat a system that, if 
adopted, would retrogress Latino political power by de facto 
returning to an at-large election system.
    Vote dilution remains a persistent issue for Latino voters, 
even in seemingly progressive States with their own voting 
rights laws.
    The contemporary attacks on access to free and fair 
elections are inextricably tied to the growth of an electorate 
that remains key to American recovery and critical to a 
thriving, vibrant democracy.
    UCLA research estimates that 16.6 million Latino voters 
cast a ballot in 2020. This is the single largest four-year 
increase for Latinos ever. These historic gains have been met 
with troubling backlash. Many of the new voter-suppression laws 
are happening in the very States where Latinos played a 
significant role.
    Let me be clear: The threats to democracy are direct 
responses to the perceived and real prospect of an inclusive, 
multiracial democracy. Congress has the power to change that.
    Thank you.
    [The statement of Ms. Diaz follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Butterfield. Thank you, Ms. Diaz, for your 
testimony.
    At this time, I will recognize the next witness, Ms. 
Johnson-Blanco.
    Ms. Blanco, you are with the Lawyers' Committee for Civil 
Rights. And I don't know if you know this fact, but your 
organization, back in the early 1980s, filed a lawsuit against 
the city where I reside, where I am at this moment, because of 
the unequal application of municipal services--to wit, the fact 
that there were 23 miles of unpaved streets in this community. 
And it was your organization that litigated and got 23 miles of 
streets paved.
    And so I don't know if you even know that, but I just want 
you to take that back to your organization. I again say thank 
you to the Lawyers' Committee.
    At this time, you are recognized for five minutes.

               STATEMENT OF MARCIA JOHNSON-BLANCO

    Ms. Johnson-Blanco. Thank you, Chairman Butterfield. I 
didn't know that, and I am glad to hear that we played that 
role.
    Chairman Butterfield, Ranking Member Steil, members of the 
Subcommittee on Elections, and Representative Scanlon, thank 
you for the opportunity to testify today on the challenges that 
face far too many voters when voting in America.
    I am Marcia Johnson-Blanco, and, for the past 17 years, I 
have worked to provide assistance and resources to voters 
through Election Protection, the Nation's largest nonpartisan 
voter-protection coalition, convened by the Lawyers' Committee 
for Civil Rights Under Law, where I am the co-director for the 
Voting Rights Project.
    Election Protection's partners and volunteers provide 
voters throughout the country with comprehensive information 
and assistance at all stages of voting through a suite of 
voter-protection hotlines, field programs, and engagement with 
election officials.
    In 2020, we saw a sizable increase in voter turnout, but 
turnout varied by State. The States with the largest increase 
in voter turnout were those States that adopted reforms to 
expand access to the ballot. For example, the three States with 
the highest-percentage-point increase in turnout between 
November 2016 and November 2020 were Hawaii, California, and 
Utah, which mailed ballots to every registered voter in the 
State in 2020 but did not do so in 2016. By contrast, those 
States with the most restrictive laws tend to be the States 
with the lowest turnout.
    The high overall turnout in 2020 was the product of robust 
engagement by voting advocates to address barriers to the vote, 
including unprecedented litigation to break down barriers. 
During 2020, the Election Protection coalition organized 46,000 
hotline shifts, 43 field programs, and received 246,000 calls 
from voters across the country.
    The Lawyers' Committee also participated in an 
unprecedented number of lawsuits to rid State election system 
of unnecessary and arbitrary restrictions. In Alaska, the 
Lawyers' Committee and our partners successfully overturned the 
witness requirement for absentee ballots after showing that the 
witness requirement would disenfranchise Native voters. In 
Missouri, the Lawyers' Committee and co-counsel challenged the 
State's arbitrary restrictions on no-excuse voting by mail. 
And, in Ohio, Lawyers' Committee and co-counsel successfully 
fought to overturn a directive by the secretary of State that 
would limit drop-box locations to one per county.
    Litigation made a difference, although victories at the 
trial court level were repeatedly overturned by hostile 
appellate courts.
    After the election, the Lawyers' Committee participated in 
the defense of an extraordinary number of lawsuits brought by 
the losing Presidential candidate and his allies aimed at 
throwing out legitimately cast votes. And this often had an 
impact on voters of color in States such as Arizona, Georgia, 
Michigan, Pennsylvania, and Wisconsin.
    Overall, in 2020, the Lawyers' Committee participated in 50 
lawsuits.
    Despite our efforts, far too many voters confronted 
barriers to the vote, including restrictive voter ID laws, 
cutbacks to early voting, consolidation or elimination of 
polling places, and restrictions on community-based voter-
registration groups, and also rejection of absentee ballots 
through the misuse of signature-matching procedures.
    In 2021, we are witnessing a backlash across States, 
including requiring photo ID for absentee-ballot applications 
and ballots, restricting flexibility of county officials to 
provide opportunities when needed. And many of these bills 
continue to disproportionately impact voters of color.
    Bills such as the law passed in Georgia and similar laws 
across the country make clear the need for Federal legislation 
to establish national standards. The For the People Act passed 
by the House on March 3, 2021, would create a new national 
baseline for election administration.
    Without congressional action, the 2020 elections and its 
aftermath may become an inflection point in our Nation's 
history, with the future being one of States providing two 
different voting systems: one that provides access and one that 
provides stringent restrictions. We must act to prevent this 
dismal future, and we must act now.
    Thank you.
    [The statement of Ms. Johnson-Blanco follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Butterfield. Thank you for your testimony.
    At this time, Mr. Adegbile you are now recognized for five 
minutes.

                   STATEMENT OF DEBO ADEGBILE

    Mr. Adegbile. Thank you. Thank you, Mr. Chairman, Ranking 
Member, Members of the Committee--the Subcommittee and the 
Committee. It is good to be with you today.
    As Representative Butterfield said, I am here today in my 
individual capacity.
    I would like to focus my testimony today on four broad 
points. First, I want to talk a bit about, as my predecessors 
have, the current threats to our democracy and the vital 
importance of the minority-inclusion principle in Federal law.
    I also want to put some of this in context. We have heard a 
bit about history; I want to speak a little bit more about it 
and reinforce the impact of the Supreme Court's ruling in 
Shelby County v. Holder, which invalidated core provisions--the 
preclearance provisions of the Voting Rights Act.
    Next, I will touch briefly on the historical pattern of 
mobilization, voter mobilization, and how increased momentum in 
minority inclusion and electoral success can result in 
backlash, as Ms. Johnson-Blanco just said, and then speak to 
the congressional authority.
    Our beloved departed Member of this body, Congressman John 
Lewis, wrote in his final essay that democracy is not a state, 
it is an act, and each generation must do its part to help 
build what we call the beloved community.
    Implicit in this important idea is the recognition that 
democracies are fragile and require constant care. We know 
this, and seemingly every day we are reminded why.
    Democracy presents candidates for elected office with two 
paths for electoral success, both with deep historical roots. 
Candidates can choose the path of mobilization, doing the hard 
work of building support for their offer of service and 
leadership through active engagement and advancement of popular 
policies, while also working to enhance mobilization. In 
contrast, others can take a different approach and try to 
demobilize. They can try to impose barriers. I think of these 
two alternate paths as democracy's high road and democracy's 
low road.
    We have heard about the extraordinary turnout in the last 
election. Forty-three States and legislatures have also 
introduced over 250 bills. As we know, because the meter keeps 
running every day, these stats change every day. I think 
Representative Butterfield had a different number based on a 
report released today. That is a sign of trouble. We have heard 
about Georgia's bill SB 202 that is now being challenged in 
courts, and we hear about the coming law in Arizona. All of 
these are causes for concern.
    But Congress has played an important role in pushing back 
on this. It elevated the Voting Rights Act as an answer to 
persistent and adaptive voting discrimination that had 
persisted and was entrenched over a long period of time, and it 
made the Voting Rights Act a Federal statement of a minority-
inclusion principle.
    So what do we know about Shelby County and the 
congressional role in responding to it?
    Chief Justice Roberts relied on the gains that we had 
because of the Voting Rights Act and declared that the South 
had changed. The Court recognized that Congress had developed 
an ample record of ongoing discrimination, but it determined 
that, contrary to the congressional judgment, the coverage 
mechanism was outdated and no longer reflected current 
conditions.
    Justice Ginsburg called that approach, ``Throwing out 
preclearance, when it has worked and is continuing to work to 
stop discriminatory changes, is like throwing away your 
umbrella in a rainstorm because you are not getting wet.''
    We knew what would happen if Shelby County was decided as 
it was, and we have seen it. We are living it. We are living it 
this week.
    Though section 2 remains in place, it is not a pre-
implementation remedy, and it takes years to win section 2 
victories that are costly, and, very often, you have the 
benefits of incumbency vesting in people that may not be 
entitled to those offices if the system were being conducted 
fairly.
    So why is history important in all of this? Well, let me 
share an idea with you. We have heard about turnout and all the 
positive things that come from it. What I know as a voting 
rights litigator is that turnout and participation and 
mobilization is sometimes the very thing that is a precursor 
for retrenchment and discrimination. This is the historical 
pattern.
    I point you to examples. I point you to Kilmichael, 
Mississippi. Certainly we had tons of examples during 
Reconstruction. The Supreme Court's case in Hunter v. 
Underwood. We can think about the LULAC decision, the Texas 
redistricting decision, where the Supreme Court recognized 
that, just as Latinos were on the verge of exercising their 
political power, they were cut off at the pass by the 
legislature. The majority said that the acts of the Texas 
legislature in the post-2000 round of redistricting bore the 
mark of intentional discrimination.
    Why does this matter? It matters for this reason: History 
tells us that the clock can go backwards; that, if we are not 
vigilant, the success of participation can be a precursor to 
discrimination. That is the pattern we have seen consistently 
since Shelby County.
    Thank you.
    [The statement of Mr. Adegbile follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Butterfield. Thank you very much for your remarks.
    At this time, the chair will recognize Secretary Wyman for 
five minutes.

              STATEMENT OF THE HONORABLE KIM WYMAN

    Ms. Wyman. Thank you, Chairperson Butterfield, Ranking 
Member Steil, and members of the Committee and Subcommittee, 
for inviting me to appear as a witness today.
    For the record, I am Washington's Secretary of State, Kim 
Wyman. And I am proud to serve as the chief elections officer 
in a State that has already implemented nearly every election 
requirement proposed in H.R. 1.
    In the 2020 Presidential election, 90 percent of 
Washington's voting-eligible population was registered to vote, 
and we had the fifth-highest turnout in the country. 
Washington's accessible registration and voting system employs 
robust safeguards that ensure only one ballot can be counted 
for each eligible voter in an election. Maintaining a balance 
between voter accessibility and election security is 
foundational to inspiring public confidence in election 
outcomes.
    Though Washington State serves as a model for successfully 
implementing same-day and automatic voter registrations, 
equitable voter list maintenance, expanded mail-in voting, and 
many other progressive policies, I can tell you, building an 
election system that balances access and security took time, 
money, bipartisan collaboration, and the active engagement of 
State and local election administrators working closely with 
legislators to constantly improve our processes.
    Innovation in election administration isn't unique to 
Washington. It happens in States across the country every day 
and needs to happen with H.R. 1. The overly prescriptive and 
one-size-fits-all approach contained in the election sections 
of H.R. 1 discounts the voices of State and local election 
officials who share valid concerns about their ability to 
implement these sweeping changes within the defined timeframes 
and leaves little margin for States' innovation in election 
administration.
    In 2000, following the politically charged and razor-thin 
Presidential election, Congress took on comprehensive national 
election reform with the passage of the Help America Vote Act 
of 2000. This process provides a reliable pathway for creating 
impactful election reform legislation today. Congressional 
Members worked across the aisle to draft bipartisan policies 
while actively seeking input from election administration 
experts and the public to perfect them.
    Last year's election was the most litigated Presidential 
election in our history, with hundreds of lawsuits being filed 
before and after election day. States adopted policies and 
procedures to provide safe voting options in the midst of the 
pandemic. Election officials conducted high-turnout elections 
through hurricanes, wildfires, social unrest, and active 
cybersecurity threats. Throughout these unprecedented 
circumstances, our country's election system remained 
resilient.
    One portion of the electorate is concerned that laws passed 
by State legislatures will disenfranchise voters who struggled 
to participate last year. Rampant misinformation and 
disinformation in 2020 tore at the fabric of our democracy and 
shattered confidence in our elections with another portion of 
the electorate.
    Despite numerous audits and recounts demonstrating the 
accuracy of election results and multiple Federal agencies 
proclaiming unequivocally this was the most secure election in 
our Nation's history, some voters still lack confidence in the 
integrity of mail-in balloting.
    We must move forward and begin rebuilding the confidence 
lost in both election security and voting accessibility. Fast-
tracking an 800-page bill written without meaningful input from 
State and local election experts is not the answer.
    If the goal is to provide national consistency in 
registering and voting for U.S. citizens, I recommend 
establishing baseline expectations for States to meet. This is 
preferable to implementing highly rigid and prescriptive 
policies that may be unworkable within the timeline specified 
and will stifle innovation in States now and for decades to 
come.
    Our Constitution gives States the important role of 
administering our country's elections. Election officials in 
every State work to inspire the public's confidence in election 
returns and provide Members of Congress the same confidence in 
the certified results of Federal elections.
    Examples would be setting timelines for registration and 
residency or standards for the minimum number of voting 
machines, ballots, and voting opportunities.
    As you move forward, I encourage you not to constrain 
States' authority to conduct elections in a narrow, limiting 
manner; rather, empower them to improve election 
administration.
    My colleagues and I in State and local election offices 
across the country stand ready to work with you and ask you to 
include us in your work to create bipartisan solutions that 
improve elections for all Americans.
    Thank you.
    And since I have a minute or two, I have to give a shout-
out to Gonzaga. And, you know, UCLA, we are going to take you 
on.
    Thank you so much.
    [The statement of Ms. Wyman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Butterfield. Now, Madam Secretary, you are causing 
trouble here today. I know there are differences of opinion 
among this Subcommittee and among those who are watching this 
broadcast in terms of the NCAA Basketball Tournament. But thank 
you so very much for your service, and thank you for your 
testimony today.
    Well, the time has arrived for member questions. Members 
are going to be recognized each for five minutes. I am going to 
first recognize the gentleman from California, Mr. Aguilar, 
from Redlands, California, I believe it is.
    Mr. Aguilar, you are recognized for five minutes.
    Mr. Aguilar. Thank you so much, Mr. Chairman. I appreciate 
it. And it is an honor to be back on this Subcommittee. You and 
I worked with this Subcommittee and then-Chairwoman Fudge in 
the last Congress, and I look forward to your leadership as 
well.
    And I am honored to be joined by my new colleagues on the 
full Committee and Ms. Leger Fernandez on this Subcommittee. 
And, thankfully, we also traded up on the Ranking Member side 
as well. So an honor to be with all of you.
    Ms. Diaz, I was struck by your testimony when you stated 
that, since Shelby County--since the Shelby decision, there 
have been nearly 1,700 poll closures across the United States.
    The majority of those occurred in three jurisdictions 
previously covered by section 5 of the Voting Rights Act and 
all of which have growing Latino communities. For example, in 
Texas, the number was 750 sites; 32 in Arizona; 214 in Georgia.
    Can you explain why these polls were closed over the past 
seven years and how they impact voters, especially Latino 
voters?
    Ms. Diaz. Absolutely. Thank you, Representative Aguilar.
    I think it is important to note that there was no longer a 
preclearance requirement for many of these jurisdictions, 
including Arizona, Texas, and Georgia, where they had to go to 
the Federal Government to seek permission and authorization for 
any changes to their electoral process.
    What is important here is that the number of Latino voters 
has been rapidly increasing. Among the competitive battleground 
States--Arizona, Florida, Texas, and even Nevada--the percent 
growth in Latino citizen voting-age population outpaced that of 
non-Hispanic Whites.
    When we think about percentage-point differentials from 
2008 to 2019, it is stark: plus 84 percentage points in Nevada, 
plus 65 in Florida, 52 in Arizona, 40 in Texas.
    And so, at the same time that Latino citizen voting-age 
population is growing, we are seeing these poll closures. And 
this is, frankly, is making it difficult for people to access a 
ballot, even in States like Texas during a COVID-19 pandemic 
that did not want to expand universal vote-by-mail, so they 
have fewer places to go vote, fewer polling locations, and 
fewer means to cast a ballot to protect their lives.
    Mr. Aguilar. You also mentioned that researchers have long 
agreed that regressive electoral reforms and restrictive voting 
bills discourage eligible voters from casting ballots and don't 
provide any real benefit toward election security.
    As Secretary of State Wyman just mentioned, our elections 
are secure, and States like California and Washington, who have 
been doing robust vote-by-mail systems for years and early-
voting options, are absolutely secure.
    Why do you think States continue to implement, Ms. Diaz, 
regressive voting laws that provide no benefit to keeping our 
elections secure?
    Ms. Diaz. It is hard to think about an answer to that that 
is generous. And so, if I am generous, I will say that there 
maybe is a perceived threat of voter fraud, but we have been 
through this time and time again, and it has been nullified, 
even under Donald Trump's presidency.
    And, so, if I am not being generous and I am being 
rational, I can't help but think that the growth of a youthful 
and diverse electorate is happening and occurring at the same 
time that we have seen an avalanche of suppression bills, 
whether it is poll closures, it is voter ID, or other means. 
And so to me, there is a correlation there, and it has to do 
with stifling Americans' access to the ballot box.
    Mr. Aguilar. Thank you so much.
    Secretary Wyman, I don't want to get into the Gonzaga 
versus UCLA issue, but would you agree that same-day 
registration and universal vote-by-mail works in the State of 
Washington and makes it easier for citizens to vote?
    Ms. Wyman. It does because we have really engaged our 
electorate, and we have built in the security measures that 
really counter claims of voter fraud, so our citizens can have 
confidence that our results are valid.
    Mr. Aguilar. And you would agree that it could be 
replicated in other States if you build on that confidence, if 
you take the security measures seriously, and if you work to 
educate the public?
    Ms. Wyman. Absolutely. And, you know, I think the big 
caveat is, it takes time and money. And that is part of why we 
had success in 2020 as a country is because Congress, thank you 
very much, did give us about $1.2 billion in HAVA 2 and 3 and 
CARES Act, but yes, with time and money, it can be done.
    Mr. Aguilar. I don't have much time. Why don't your peers 
in other States believe that it will be easier to vote by 
having vote-by-mail and mail-in ballot and same-day 
registration? I am just struck by that, that some of your peers 
don't believe that. And I don't have much time left, so maybe 
we will have to get that answer down the line. But that is why 
we are here. That is why we are exercising oversight, that is 
why we are asking these questions, because so many people 
across this country do not have the opportunities that people 
in California and Washington have to exercise that right to 
vote.
    Thank you, Mr. Chairman.
    Chairman Butterfield. Thank you, Mr. Aguilar.
    At this time, the chair will recognize the Ranking Member 
of the Subcommittee for five minutes.
    Mr. Steil. Thank you very much, Mr. Chairman. I appreciate 
the recognition. I would like to dive in--I was reading a New 
York Times article the other day on H.R. 1, and it stated that 
election administers have started to raise questions and 
complaints about the bill. It said, quote, they weren't 
consulted on a major Federal rewrite of the system. They 
believe they have been--that it has been overseen effectively. 
One Democratic State elections director said the early voting 
mandates in the bill would require a county of 2,000 residents 
to keep polls open for 15 days, 10 hours a day. Even for an 
off-year, congressional primary that draws only a handful of 
voters and they said such an inflexible requirement, according 
to this director, who spoke on condition of anonymity for a 
fear of repercussions, would create problems, not solve them.
    Secretary Wyman, you oversee the State of Washington. Were 
you consulted as we--as Congress passed H.R. 1 this year?
    Ms. Wyman. No, I haven't been.
    Mr. Steil. I think that is too bad. But do you agree with 
the assessment, I guess, of this anonymous source, but it is 
The New York Times, that there would be real challenges in 
implementing some of the reforms that were in place in H.R. 1?
    Ms. Wyman. Oh, absolutely. And I think that goes to what I 
mentioned in my testimony, that it is of a prescriptive nature, 
and very specific elements of H.R. 1 that make it problematic 
for election officials to be able to implement in the timelines 
prescribed. For example, I am trying to find my best one here. 
I think the VVSG, the voting standards that were set out for 
the EAC haven't even been--they have just been passed. We don't 
even have a testing facility that can test to those standards 
and the timeline that is presented for the 2022 election is 
going to be problematic. Our State wouldn't have a certified 
system, because if you don't meet the standards and have your 
systems tested, they are decertified. That is a huge problem 
nationally.
    Mr. Steil. I thank you and I share a lot of concerns that 
if H.R. 1 kind of gets rammed through, not getting the input of 
States and election officials like yourself, there can be some 
real-world complications. I really share that concern.
    Let's dive in a little bit in the State of Washington that 
you oversee. Can you walk us through, again, a couple of these 
election integrity measures that you put in place in your State 
and, in particular, how you utilize voter ID in the State of 
Washington, to make sure that it is both easy to vote but also 
hard to cheat?
    Ms. Wyman. Absolutely. Washington State has had voter ID 
since 2006 and we require it at that time of voter 
registration. They have to provide a Washington State ID card 
or Washington State driver's license, or the last four digits 
of their Social Security number. These are verified and the 
vast majority of our applicants provide one of those three. We 
also have alternate ID. This is one of the key elements of 
vote-by-mail elections which we conduct in Washington State, 
because we can have a high confidence level that the people 
that are registered are actual people that have walked into a 
government agency and proven who they are. And it is separate 
from voter registration. We also have a Statewide voter 
registration system and election management system that 
connects our 39 counties in real time.
    So, on Election Day, they have real-time, up-to-the-minute 
information for anyone who walks into a voting center. They can 
issue a ballot, and if one has already been issued, they can 
cancel that first one and issue a new one or register a person 
for the first time. And this is really how we have confidence 
that we are only counting one ballot no matter how many we have 
issued to a voter.
    And finally, we are part of the ERIC project. The 
nationwide, 31 States, I believe, are members right now, and we 
are able to keep our rolls maintained, and also identify 
potential voters when they move into our respective States and 
reach out to them and show them how to register and vote.
    Mr. Steil. As you are aware, every State is very different. 
So in my home State of Wisconsin, we have a little over 1,800 
clerks managing the elections that are at a local level in our 
State. My understanding, if my memory serves me correctly, 
Washington, under you, is 39 counties and your elections are 
held at the county level.
    Could you just comment briefly some of the challenges of 
rushing through a major piece of legislation, like H.R. 1, 
without really reaching out to all of these election officials 
like yourself that are actually the boots on the ground, that 
would be forced to technically implement some of these Federal 
mandates if they came through?
    Ms. Wyman. The biggest challenge is just the diversity 
across the country. And, again, it goes back to time and money. 
So even in my State, I have a jurisdiction that has over a 
million registered voters, and I have some that have a few 
thousand. So to make just one-size-fits-all mandates is very 
much an issue for each of those counties and we are going to 
need the resources, and it can't just be one-time money, like 
HAVA was, and then over time, you have the disparity of 
counties because some have money and some don't.
    Mr. Steil. Thank you very much.
    Seeing the time, I yield back.
    Chairman Butterfield. The gentleman yields back.
    This time the chair recognizes the gentlelady from Santa 
Fe, New Mexico, Congresswoman Leger Fernandez.
    Ms. Leger Fernandez. Thank you, Chairman.
    And Santa Fe, New Mexico is beautiful right now, and we 
don't have any team in the tournament, so I am staying out of 
all of that, but I am thankful to you for bringing to this 
Subcommittee the voting rights experts today to talk about the 
impact of both those 361 bills and existing barriers.
    I think that increasing voter participation should be the 
goal of every lawmaker, whether they be Republican or Democrat, 
because it is the core of our democracy. And I was pleased to 
know that 4 million more Latino voters cast a ballot in 2020 
than in 2016. Native Americans defied the devastation of COVID 
here in New Mexico and throughout the southwest to vote in 
higher numbers.
    Ms. Diaz, you noted that Latino voters are younger than the 
average and the 30.9 percent increase represents many first-
time voters. What happens when a first-time voter faces voting 
barriers like long wait times? Does it impact that voter's 
likelihood of becoming a lifelong voter?
    Ms. Diaz. Absolutely. Voter suppression is a feedback loop, 
especially for youthful and growing diverse electorates who are 
already left out of the franchise, because there is not a lot 
of data on them on the voter file. So they are not going to get 
all the information that likely voters already expect.
    So, if a first-time voter is trying to cast a ballot and 
faces barriers, whether those are long lines; or trying to 
figure out where to vote, because the polling location has 
closed; trying to produce an ID because the State they live in 
doesn't take their student ID; then they are not going to cast 
a ballot. And they are going to remain in this spectrum and 
universe of voters who have not casted ballots and are not 
going to get that information.
    It is not until they cast that first ballot that they will 
be in the universe that receives all of the messaging and 
mobilization that makes our democracy great. So this is really 
a clear and present danger, as we think about Asian American 
voters, and Latino voters who are very young.
    Ms. Leger Fernandez. Thank you. And you listed some of the 
different barriers that apply. Why can't we accept these 
barriers, or these measures, as simply good-governance measures 
that would apply equally to all?
    Ms. Diaz. Let me bring up the case of Ms. Brenda Lee Garcia 
who is a 44-year-old resident of Bexar County, Texas, and a 
long-time voter. Under Texas' vote-by-mail law, she had to be 
over the age of 65. Yet, Ms. Lee Garcia was a registered 
working nurse during a global pandemic helping us save American 
lives, and Texas law made it so that Ms. Garcia was not 
eligible for a mail ballot.
    So, I don't know what legitimate governmental interest 
would be to really force somebody who is there in our hospitals 
during a global pandemic when people are dying unnecessarily 
that they, in fact, have to really balance saving lives, 
staying healthy, and their fundamental right to vote.
    Ms. Leger Fernandez. Thank you. Ms. Riggs or Mr. Adegbile, 
I have also litigated Section 2 redistricting cases, and as you 
know, they are intensive and they are time-consuming. You noted 
that Section 2 alone won't protect the vote, partially because 
of the long-time frame it takes to conclude a case. Can either 
of you speak to what you believe must be done to restore the 
efficacy of the Voting Rights Act?
    Ms. Riggs. Thank you, Representative, and I will be brief, 
so Mr. Adegbile has time to respond as well. We need a dynamic 
Voting Rights Act, Section 5, that addresses the current issues 
that we have. In places where there are recent instances, and 
examples of discriminatory acts, those are the actors that a 
renewed Voting Rights Act needs to be addressed at.
    There are also practices that we know disproportionately 
harm voters of color, and without a pre-clearance mechanism, we 
can bring as many Section 2 cases as we want, but the wheels of 
justice turn slowly, and elections will proceed under illegal, 
unconstitutional plans before we can get relief, even 
preliminary injunction relief.
    So those known practices include adding at-large seats in 
heavily minority areas, certain voter purges, redistricting 
where there are significant voters of color. We need the Voting 
Rights Act to be able to do our work to use Section 2 
appropriately and obtain relief timely.
    Ms. Leger Fernandez. Mr. Adegbile, we are sort of out of 
time, but if you can do a really quick summary.
    Mr. Adegbile. Sure. The new legislation should focus on the 
current needs. That was one of the concerns that the Supreme 
Court had. History can inform those needs, that is to say, 
where you have continuing patterns, and there have been lots of 
patterns of persistent and adaptive discrimination. History is 
relevant, but it has to be a geographic remedy you would have 
for a pre-implementation, pre-clearance-type regime that has 
the advantage of blocking and deterring discrimination before 
it can be visited on the victims is really important.
    The other things I would say is that the burden shift was a 
very important tool as well, and that is important to have.
    Ms. Leger Fernandez. I yield back. Thank you.
    Chairman Butterfield. The gentlelady yields back, and I 
thank you for your questions.
    At this time, the Chair recognizes the Ranking Member of 
the full Committee, Mr. Davis, from Taylorville, Illinois.
    Mr. Davis. Thank you, Mr. Chairman. And my first questions 
are going to go to Secretary Wyman, in spite of her inability 
to choose the right teams to root for in football, baseball, 
and now college basketball. In spite of Mr. Aguilar being from 
the L.A. area, I am for the underdog. Go UCLA.
    Secretary, during the 2020 election, we sent numerous 
election observers and committee staff throughout the country 
to observe various congressional races before, on, and after 
Election Day. We identified similar issues in several States. 
No, or very minor, safeguards for mail balloting, lack of 
proper enforcement of signature verification, lack of voter 
list maintenance, and slow ballot counting.
    I am sure you would agree with me that everyone's goal in 
any election is to ensure every eligible voter is able to cast 
a ballot, right?
    Ms. Wyman. Correct.
    Mr. Davis. I mean, most people are voting--they are voting 
for good democracy. And you are not in the business as the 
Secretary of State of preventing lawful voters from voting, are 
you?
    Ms. Wyman. No.
    Mr. Davis. How about your county auditors, are they?
    Ms. Wyman. No.
    Mr. Davis. Thanks. And in Washington State, you and your 
team have really worked hard to implement this vote-by-mail 
system and you have been able to do that because Washington 
State gets to decide what works best for Washingtonians, right?
    Ms. Wyman. Correct.
    Mr. Davis. Now you are an all mail-in State. You have been 
here before. Thank you for coming back. Always great to see 
you, again. Proud to call you a friend. Walk us through how you 
move to an all-mail system? How long did that take and what did 
it entail?
    Ms. Wyman. It took many years and it really began in the 
early 1990s when we started allowing any voter to choose to be 
an absentee voter for all elections. By 2004, about 40 to 60 
percent, depending on our counties, each county had permanent 
absentee voting status and we had the closest governor's race 
in the country's history.
    Out of that, some of the election reforms allowed our 
counties to choose to be vote-by-mail permanently, and that was 
about the time we were implementing the Help America Vote Act. 
So many counties moved in 2005, and it took another five years 
for the rest of the State to be mandated, actually, to move to 
vote-by-mail, because we do have some people in the State that 
do not like vote-by-mail elections.
    So we have been vote-by-mail since 2011, and in all of that 
time, we have been, like I said, working with our legislature 
and the 39 county auditors to really build in the security 
measures and the accessibility that our voters need.
    Mr. Davis. Well, thank you. I am very proud of your 
testimony following the 2020 election that said voters need to 
know there is a logical beginning, middle, and clear and final 
end in any election. I appreciate you being here again, Kim.
    My next question, Ms. Diaz. In your testimony, you 
highlight 10 States that have significant increases in the 
number of Latino voters since 2008. My home State of Illinois 
being one with a 41.88 percentage increase. Given this change 
in Latino citizen voting age population, should Illinois use 
this data when drawing its new congressional districts?
    Ms. Diaz. Well, absolutely. When we think about 
redistricting, we really need to look at total population, and 
we also need to look at citizen voting age population. I think 
that Illinois needs to go beyond that recognizing that there 
were various issues with the 2020 decennial Census. And so we 
need to make sure that the households, particularly those that 
were in hard-to-reach communities, those that are low income 
with veterans, with children are adequately counted, and I will 
tell you why.
    As you know, this has a lot to do with political 
representation, but it also has to do with the allocation of 
resources. And I recognize that a lot of the comments right now 
from the Secretary of State are about local control. And I 
think that if resources are permitted from you and your 
Committee members, and the Members of Congress, to ensure that 
we have free and safe access to American democracy, then I 
think we can all get on board.
    So yes, I do think that data matters. I think that the 
growth of the Latino community----
    Mr. Davis. Reclaiming my time. I apologize. I don't have 
much left, and although I really respect the Chair, I know he 
is not going to give me any more. Do you think Illinois should 
draw another Hispanic congressional district with the large 
increase in Hispanic voters in Illinois, and only one Hispanic 
majority-elected Member of Congress out of 18 districts right 
now?
    Ms. Diaz. I think that Illinois should follow the law and 
recognize that data in Section 2 really clarifies how one 
should integrate that data. I need to look at it. Again, the 
data will not be here. The latest data from the census will not 
arrive until September.
    Mr. Davis. Ms. Diaz, here in Illinois, our elected 
officials are going to be using estimated American Community 
Survey data to draw congressional maps and State legislative 
maps, and I would love to sit down with you and your 
organization to look ahead.
    I mean, I certainly hope that if this increase in Latin 
American population and voting age population in the State of 
Illinois is not part of the congressional redistricting 
process, I certainly hope your organization will be looking at 
filing lawsuits in the future.
    So with that, I am out of time. I yield back. And thank 
you, all of you, for being here.
    Chairman Butterfield. Thank you. Thank you so much for your 
questions. At this time, the Chair will recognize--let's see 
who is next on the list, Congresswoman Mary Gay Scanlon from 
Swarthmore, Pennsylvania. You are recognized for five minutes.
    Ms. Scanlon. Thank you, Chairman Butterfield. Our 2020 
elections saw an unprecedented number of voters cast their 
ballots on or before Election Day, often using mail-in ballots. 
And in Pennsylvania where I live, we were grateful that in 2019 
a bipartisan effort between our Republican legislature and our 
Democratic Governor had expanded access to the ballot by 
allowing no excuse mail-in voting for the first time.
    That law was passed as part of a bipartisan effort to 
modernize Pennsylvania's election infrastructure long before 
the coronavirus pandemic had added public health reasons to use 
mail-in ballots. So, as in elsewhere in the country, mail-in 
voting increased exponentially. It also increased 
participation. Over three-quarters of our Pennsylvania 
electorate turned out for the presidential election, with 
almost 40 percent of the ballots being cast by mail.
    Unfortunately, as the first election in which universal 
vote-by-mail was available in Pennsylvania, that was the 2020 
primary election, and efforts to educate the public about the 
new mail-in ballot process and the multiple levels of security 
to ensure ballot integrity, those efforts were undermined as 
former President Trump and his allies began to allege, without 
any proof, that mail-in voting was subject to fraud.
    And, in fact, despite unsuccessful ballot challenges and 
lawsuits on behalf of the former President, and even a 
completely baseless objection to Pennsylvania's electoral 
ballots on January 6, no one ever produced any evidence that 
Pennsylvania's electoral results were impacted by any 
misconduct.
    But, as Secretary Wyman has noted, vote-my-mail can require 
some fine-tuning and one of the issues that Pennsylvania 
encountered was that the new law did not allow county boards of 
election to process ballots before Election Day. And with 
millions casting mail-in ballots, the counting process took 
some time, as we all saw. However, rather than fine-tune 
Pennsylvania's mail-in ballot process, what has resulted from 
those false allegations is that Republican lawmakers in 
Pennsylvania have introduced more bills to restrict the right 
to vote in Pennsylvania than any other State government in the 
country. And those changes are trying to make mail-in voting 
more difficult by limiting who is eligible and restricting 
options for returning the ballot.
    So, as someone who believes that we should strive to 
increase voter participation for all eligible voters, and pass 
policies to expand, not limit, the use of mail-in balloting, I 
am obviously concerned.
    Ms. Johnson-Blanco, I wanted to start by thanking you for 
the work that you have done with the Lawyers' Committee and the 
Voting Rights Project, and had the privilege, over time, of 
participating in some of those efforts. Can you discuss the 
success of mail-in voting in Pennsylvania and across the 
country in the 2020 election?
    Ms. Johnson-Blanco. Yes. What we saw in 2020 is that mail-
in voting offered additional access to the ballot, and the fact 
that so many voters took advantage of this opportunity showed 
that it is a needed reform for voters. And, unfortunately, what 
we are seeing now is backlash to the use of mail-in voting and 
that increased access. And rather than States ensuring that 
voters have increased opportunities to vote by mail, they are 
doing the opposite.
    So we really, as I noted are at an inflection point, where, 
rather than build on the access and opportunities we saw with 
mail-in voting, there are far too many States that are going in 
the opposite direction, and this has a disproportionate impact 
on voters of color and all voters overall.
    Ms. Scanlon. Thank you. Can you dispel some of the 
misinformation about the security of ballot drop boxes?
    Ms. Johnson-Blanco. Yes. There have been studies done after 
the election, looking at the allegations related to mail-in 
voting, and have found that those allegations of fraud or 
mischief were unfounded. I think that the jurisdictions that 
have used drop boxes have actually allowed opportunities for 
voters to submit their ballots in a timely manner. And there 
hasn't been any evidence that there were any security flaws in 
being able to do so.
    Ms. Scanlon. Ms. Wyman, you have talked about Washington's 
long-standing use of mail-in voting. Like Washington, 
Pennsylvania requires proof of citizenship when people register 
to vote, and the mail-in ballots have multiple layers of 
security. What do you say to individuals who are concerned that 
mail-in voting leads to widespread voter fraud?
    Ms. Wyman. That hasn't been our experience in Washington 
State. And because we have a long rich history of that 
practice, we have a lot of data and a lot of documentation to 
be able to show and disprove the allegations of voter fraud, 
and it certainly was top of mind following the 2020 election, 
and that is why the security measures are important.
    Ms. Scanlon. In Washington State, can you pre-canvass your 
ballots? Can you start processing mail-in ballots before 
Election Day?
    Ms. Wyman. Yes. We have an 18-day voting window before 
Election Day, and they can begin processing those as soon as 
they return. And this is why you need to talk to election 
officials.
    Ms. Scanlon. Yes. And we are hoping that our State 
legislature in Pennsylvania will listen to the election 
officials who are universally saying they need some fine tuning 
of the Pennsylvania laws not because of fraud, but because they 
just need the logistics to work in terms of timing to get the 
votes in and get the results out as quickly as possible.
    Thank you to all of our witnesses here. I really appreciate 
it.
    And I yield back.
    Chairman Butterfield. The gentlelady yields back. Thank 
you, Congresswoman Scanlon.
    At this time, the Chair will recognize himself for five 
minutes. And let me address my first question to you, Ms. 
Riggs. Again, thank you so very much for your testimony today, 
and thank you for your incredible work, not just in North 
Carolina, but throughout the country.
    Ms. Riggs, prior to the Shelby County case, 40 counties in 
North Carolina were covered by the pre-clearance provisions of 
the Voting Rights Act. There were 60 counties that were not 
included. In other southern States--Mississippi, Alabama, 
Georgia, and the like, the entire State was included, but for 
North Carolina, it was 40 counties because of demonstrated 
discrimination in those 40 counties in prior years.
    According to the U.S. Commission on Civil Rights from 1980 
to 2013, the Department of Justice had issued over 50 objection 
letters, and I was part of some of those as a practicing 
attorney, over 50 objection letters under Section 5 regarding 
proposed election law changes in North Carolina, including 
quite a few since the year 2000.
    My question is, has the loss of pre-clearance made it more 
difficult to track changes at the local level that could have a 
discriminatory effect on voters?
    Ms. Riggs. It absolutely has. One of the things that we 
were able to monitor through pre-clearance submissions on the 
U.S. Department of Justice website was precinct closures, 
polling place closures. There are 100 counties in North 
Carolina. For us to be able to monitor that effectively and 
efficiently, particularly in order to intervene in time, we 
have to go county by county, essentially, or submit public 
records request to the State Board of Elections. It is onerous, 
and we are missing opportunities to protect voters in the 
meantime.
    Chairman Butterfield. Without pre-clearance, the time and 
expense of protecting the right to vote has exponentially 
increased litigation. Litigation can be costly and time 
consuming. The costs can mount into the millions of dollars. It 
is burdensome. Election Day does not change, even if court 
deadlines do. Sometimes lawsuits aren't decided until after an 
election, when the winner becomes an incumbent.
    Can you please describe the sorts of resources that are 
necessary to litigate these types of cases?
    Ms. Riggs. I will point you to our redistricting litigation 
last cycle in North Carolina. It was not until the 2020 
election that we had constitutional elections for the State 
legislature and the congressional delegation. 2012 through 
2018, there was some constitutional defect in each of those 
elections. That affects the policies that get passed as they 
relate to voters of color. We see the legislature interfering 
in counties that weren't covered under Section 5.
    So, there should be more coverage, not less coverage. The 
legislature messed around with elections in Mecklenburg, in 
Wake County, in Buncombe County. Those were not previously 
covered elections, but the legislature is the problem actor 
here, and many of those elections went through. We elected 
illegitimately elected representatives when the plans beneath 
were problematic. This is why we need a new Section 5.
    Chairman Butterfield. Thank you. Let me ask, Mr. Adegbile. 
Sir, some States, such as the State of Washington have 
implemented policies that arguably expand voters' access to the 
ballot, while other States have not, or have actively worked to 
restrict access. My question is, why? Why is it important for 
Congress to act on voting rights? How has the lack of a full 
Voting Rights Act weakened access to the franchise?
    Mr. Adegbile. Thank you for that question. The history and 
the experience is that States do have some freedom to prescribe 
their own voting laws, but we also have an experience of States 
engaging in very serious discrimination against voters. There 
is a long history of it, and it persists to the current day. I 
contend that it persists to enactments of last week that are 
now being challenged.
    So, the pattern is very clear that there is a Federal role. 
There are multiple Supreme Court precedents acknowledging the 
Federal power to pass laws that regulate elections and the 
Voting Rights Act is regarded as the most important enactment 
of Congress in the 20th century. I think Roll Call had it on 
that list.
    And so, the Federal role is one that is recognized in 
constitutional amendments. Congress has the power to enact 
legislation, to enforce those amendments, and to bring a degree 
of uniformity to Federal elections that is not something that 
can be left to the States. In my view, it would be an 
abdication of the Federal responsibility to not take account of 
the ongoing patterns of discrimination.
    Chairman Butterfield. Thank you very much. My time has 
expired, but thank you to the witnesses for your testimony 
today.
    I am going to mute for just a moment and consult with 
staff.
    All right. I am told that it is protocol to recognize the 
Ranking Member for any concluding remarks if you happen to have 
any.
    Mr. Steil. I will keep it brief. We have had a good 
conversation today. I look forward to continuing this dialogue 
as we move forward.
    And I will yield directly back to you, Mr. Chairman.
    Chairman Butterfield. I thank the gentleman. And the 
Ranking Member of the full Committee, sir, do you have any 
concluding remarks?
    Mr. Davis. I just want to thank you, Mr. Chair, and thank 
Ranking Member Steil. He passed with flying colors his first 
hearing, and, also, my colleagues and the witnesses today. I 
appreciate that. There is a lot of talk about voter turnout, 
and we need to continue the historic turnout model. There is a 
lot of discussion here about coverage jurisdictions. I would 
like to remind the Committee and remind the witnesses and those 
watching that in the initial Civil Rights Act of 1964, voter 
turnout did matter. The way that jurisdictions were considered 
covered jurisdictions was based upon voter turnout in a 
previous presidential election.
    So, I want to make sure that we continue to work toward 
commonsense solutions, that we can find common ground, and that 
we make sure that every person who is legally able to cast a 
vote gets a chance to do so in this great country.
    With that, sir, I yield back and thank you, again, for your 
friendship and your leadership.
    Chairman Butterfield. And thank you, Ranking Member Davis, 
thank you, Ranking Member Steil, and thank you to all of my 
colleagues for your participation in this very important 
hearing today. I don't know if my colleagues picked up on it, 
but witness Debo Adegbile was one of the counsels in the Shelby 
County case who actually presented the case to the United 
States Supreme Court, and, so, we thank you, sir, for your 
testimony today.
    And I went back and reviewed that case, again, last night. 
I have read it at least a dozen times over the years, but I 
went back last night for a refresher. And one sentence stood 
out for me, and I highlighted it on my paper. It says, 
``Congress may draft another formula based on current 
conditions.''
    And, so, the point is, Chief Justice Roberts decided for 
the Court that Section 5 is a constitutional grant of power. 
Section 5 has not been struck down. It continues to be the law 
of the land. What was struck down as unconstitutional was 
Section 4, which is the formula that determines which States 
are in, which States are not in for the purposes of Section 5. 
And then, the Chief Justice says that Congress may draft 
another formula, it is not an engraved invitation, but it is 
also a very subtle message to Congress that we should come up 
with another formula. And that is what we are doing today. And 
we will be doing in the next few weeks as we conduct these 
upcoming hearings.
    We cannot draft a formula without having valuable testimony 
from people who are knowledgeable. And, so, thank you to the 
witnesses for your testimony. It will become a part of this 
congressional record, which may be used one day to update the 
formula to Section 4.
    Is there anything further from any of the Subcommittee 
members?
    All right. I am very thankful for staff. I want to thank 
the staff also for traveling from Washington, D.C. to Wilson, 
North Carolina, this morning to participate in this hearing. I 
wish you could see the set up that we have here in the Wilson 
Operations Center. It is a very elaborate set-up, the camera 
and the laptop and a big screen monitor and staff all around. 
And thank all of them for all of the work that they do in 
support of our work. So thank you, and, without objection, the 
Subcommittee on elections of the Committee on House 
Administration stands adjourned.
    [Whereupon, at 1:34 p.m., the Subcommittee was adjourned.]

      

                        QUESTIONS FOR THE RECORD

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      

                       SUBMISSIONS FOR THE RECORD

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
